                ACQUISITION OF THE DEFENSE
                 JOINT ACCOUNTING SYSTEM


Report No. D-2000-151                   June 16, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or
  visit the Inspector General, DoD Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup
  and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                 Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                        Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@dodig.osd.mil; or by writing to the Defense Hotline, The
  Pentagon, Washington, DC 20301-1900. The identity of each writer and
  caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                       Communications, and Intelligence)
CEFMS                 Corps of Engineers Financial Management System
DFAS                  Defense Finance and Accounting Service
DJAS                  Defense Joint Accounting System
IG                    Inspector General
IT OIPT               Information Technology Overarching Integrated Product
Team
MDA                   Milestone Decision Authority
ODPA&E                Office of the Director, Program Analysis and Evaluation
USD(C)                Under Secretary of Defense (Comptroller)
                        Office of the Inspector General, DoD
Report No. D-2000-151                                                     June 16, 2000
 (Project No. D2000FG-0056) (formerly Project No. 0FG-5103)

                                  Acquisition of the
                           Defense Joint Accounting System


                                  Executive Summary

Introduction. This audit was conducted in response to the House Committee on
Appropriations Report on the Defense Appropriations Bill, 2000. The Committee
directed the Inspector General, DoD to determine whether the Defense Joint
Accounting System (DJAS), a Defense Finance and Accounting Service (DFAS)
accounting system, had met DoD information technology standards and the
requirements of the Clinger-Cohen Act related to system acquisition.

DFAS estimated that $140.2 million would be spent on DJAS by the end of FY 2000.
In addition, DFAS estimated that the total life-cycle cost of DJAS would be
$700.7 million before the system’s planned retirement in FY 2015. DoD plans to have
four general fund accounting systems. Under current plans, DJAS would be used by
the Army and a variety of Defense agencies.

The House Committee on Appropriations Report severely criticized the joint acquisition
Milestone I and II approval for DJAS by the Milestone Decision Authority, the
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence). The Committee directed the DoD “to conduct a proper Milestone I
review of this system.”

Objectives. The overall objective of the audit was to determine whether the process
for managing the DJAS program meets the DoD standards for acquisition of
information technology and the requirements of the Clinger-Cohen Act.

Results. Although the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) established numerous conditions and required
actions after granting joint Milestone I and II approval for DJAS development, those
measures did not fully compensate for the lack of requisite planning before Milestone I
and II. Specifically, DFAS did not develop a complete and supportable feasibility
study, analysis of alternative systems, economic analysis, acquisition program baseline,
or performance measures. DFAS also did not ensure that business processes had been
reengineered to meet the DoD standards for Milestone I and II of the acquisition
management process and the requirements of the Clinger-Cohen Act.

The DoD had not yet conducted a proper Milestone review for DJAS. The Under
Secretary of Defense (Comptroller), the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence), and the Information Technology
Overarching Integrated Product Team had not ensured that DFAS demonstrated that the
DJAS acquisition plan was sound and user requirements would be met. As a result,
DoD set a poor precedent for management control of major information technology
investments and remained unsure that DJAS program risks had been minimized.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) not approve DJAS for
use by DFAS customers until DFAS has demonstrated that the current acquisition
strategy will reduce risks, ensure the required functionality for users, and meet DoD
acquisition standards and Clinger-Cohen Act requirements. The Information
Technology Overarching Integrated Product Team should also be convened to support
the Milestone Decision Authority.
We also recommend that the Under Secretary of Defense (Comptroller) oversee the
modification of acquisition management documents to reflect the current acquisition
strategy for the DJAS program and to ensure compliance with DoD acquisition
guidance and Clinger-Cohen Act requirements. In addition, we recommend that the
Director, DFAS, require the DJAS program management office to provide complete,
supportable, and updated documentation that reflects the current acquisition strategy
and meets DoD acquisition guidance and the Clinger-Cohen Act requirements.

Management Comments. The Acting Deputy Chief Information Officer did not agree
that oversight of the DJAS acquisition had been ineffective. However, he concurred
with the recommendations to withhold approval of Milestone III until DoD acquisition
and Clinger-Cohen Act requirements are met, agreed to conduct a meeting of the
Information Technology Overarching Integrated Product Team, and the Milestone
Decision Authority will direct that an updated analysis of alternatives be prepared.

The Deputy Chief Financial Officer provided a combined response for the Under
Secretary of Defense (Comptroller) and the Defense Finance and Accounting Service.
The Deputy Chief Financial Officer neither concurred or nonconcurred with the
recommendations, but stated that the report identified a number of issues that require
deliberative consideration.

A discussion of the management comments is in the Finding section of the report and
the complete text is in the Management Comments section.

Audit Response. Although we continue to believe that oversight of the DJAS program
failed to ensure its compliance with DoD and Clinger-Cohen Act requirements, the
proposed actions of the Acting Deputy Chief Information Officer are responsive.
However, the Under Secretary of Defense (Comptroller) reply was not responsive. We
request that the Under Secretary of Defense (Comptroller) provide comments to this
report that detail specific actions that will be taken to ensure the DJAS program
complies with DoD and Clinger-Cohen Act requirements. We request those additional
comments by August 16, 2000.




                                           ii
Table of Contents

Executive Summary                                                              i


Introduction
     Background                                                                1
     Objectives                                                                4

Finding
     Management of the Acquisition Process for the Defense Joint Accounting   5
       System


Appendixes
     A. Audit Process
         Scope and Methodology                                                15
         Summary of Prior Coverage                                            17
     B. Report Distribution                                                   18

Management Comments
     Under Secretary of Defense (Comptroller)                                 21
     Assistant Secretary of Defense (Command, Control,
      Communications, and Intelligence)                                       22
Introduction
          The House Appropriations Committee directed the Inspector General, DoD, to
          audit the process for acquiring the Defense Joint Accounting System (DJAS).
          Specifically, the Committee directed us to determine whether DJAS met the
          DoD standards for acquiring information technology and the requirements of the
          Clinger-Cohen Act.

Background
          DFAS Migratory Accounting Strategy. The 1997 DFAS Chief Financial
          Officer’s 5-Year Plan includes a migratory accounting system strategy to reduce
          general fund accounting systems to three. The Corps of Engineers Financial
          Management System (CEFMS)--an Army Corps of Engineers system
          specifically designed to manage the Corps projects--was one of the three
          systems. The others were the Standard Accounting and Reporting System and
          the Standard Accounting and Budgetary Reporting System. The 1999 DFAS
          Strategic Plan (draft) revised the migratory strategy to reflect the migration to
          four systems. The fourth system is the Air Force General Fund Accounting
          System.

          DFAS conducted limited tests on CEFMS from April 1995 to March 1996 and
          verified that it could be modified to satisfy Army customers and that it had the
          potential for supporting Defense Business Operations Fund customers.
          Subsequently, the Under Secretary of Defense (Comptroller) and Director,
          DFAS selected the Army’s CEFMS in 1998 to meet the DJAS requirements.
          DFAS envisioned that DJAS could satisfy accounting requirements for DoD
          transportation1, DoD security assistance, the Army, and the Air Force.
          In February 1998, DFAS decided to allow the Air Force to withdraw from
          DJAS and modified the plan so that DJAS would serve only the Army and DoD
          agency customers. DFAS reached this decision after the Information
          Technology, Overarching Integrated-Product Team (IT OIPT) was advised that
          either the Air Force processes or the DJAS processes would need significant
          reengineering to allow for the development of a joint accounting system.

          Information Technology Oversight. The House Appropriations Committee
          reported in its Report on the DoD Appropriations Bill for 2000 that:
                       The Committee is disappointed with the Department’s current level of
                       oversight of its information technology systems. In the words of the
                       Department of Defense Inspector General (DoD IG), information
                       technology projects “have tended to overrun budgets, slip schedules,
                       evade data standardization and interoperability requirements, and
                       shortchange user needs”. The DoD IG rates this as one of the
                       Department’s top ten most serious management problems. Likewise,


1
    The transportation business area includes the U.S. Transportation Command and its component
    commands, which are the Army Military Traffic Management Command, the Navy Military Sealift
    Command, and the Air Force Air Mobility Command.



                                                    1
          the General Accounting Office has consistently designated the
          Department’s information technology project management as a high
          risk area.

          Despite these concerns, the senior group responsible for reviewing
          and approving information technology investments (called the IT
          OIPT [Information Technology Overarching Integrated Product
          Team] has not even met in over a year. Those systems that are
          reviewed are often approved despite lacking key documentation. For
          example, at least seven programs totaling $780,000,000 are moving
          forward despite lacking an Acquisition Program Baseline, a critical
          tool for program management. Others have gone forward without
          being able to demonstrate the costs and benefits of the investment. In
          hearings, when the Committee has requested lists of systems
          terminated or significantly restructured as part of the Department’s
          oversight process, the answers have consistently indicated that this
          rarely if ever happens. In fact, an investigation of the systems
          terminated by the Office of the Secretary of Defense reveals that the
          majority of them were canceled because their sponsoring organization
          was abolished, not because of any problems with the system.

Defense Joint Accounting System. The House Appropriations Committee
report stated that DJAS was as an example of a program that lacked sufficient
oversight. Specifically, the Committee stated:
          A recent example of these problems is the Defense Joint Accounting
          System (DJAS), currently under development.                Despite the
          importance of developing joint systems, the Department has allowed
          the Air Force and the Navy to opt out of this program and to develop
          and modernize their own distinct systems. Thus, this ‘joint’ system
          will be fielded only to the Army and a few defense-wide activities.
          After its initial Milestone 0 approval, the timeline for completing the
          DJAS software development effort expanded from 16 months to six or
          more years, the benefits declined from $322,000,000 to $204,000,000
          and are now characterized as “productivity savings”, whereas before
          they were real cost savings. In November, the DoD IG issued a draft
          report warning that DJAS had not completed the steps required under
          the program management process to be prepared for a Milestone I
          review. In March, the Office of Program Analysis and Evaluation
          issued similar warnings about the dramatic change in the programs
          scope, cost, and duration. Despite these serious concerns, the
          Department not only issued Milestone I approval, but also
          Milestone II approval at the same time, all without having a meeting
          of the IT OIPT to review the system. The Committee rejects this
          approval as inconsistent with the intent of the Information Technology
          oversight process and the Clinger-Cohen Act.              Further, the
          Committee directs that the DoD IG update and complete their audit of
          DJAS with particular emphasis on determining if DJAS meets the
          standards for Milestone I or Milestone II approval and the
          requirements of the Clinger-Cohen Act. In addition, following the
          Inspector General’s report, the Committee directs the Department to



                                        2
                       conduct a proper Milestone I review of this system and to provide a
                       report to the congressional defense committees consistent with the
                       requirements of general provision Section 8125 of the bill.

           Emphasis on Information Technology Oversight. The House Appropriations
           Committee provided strong guidance regarding DoD compliance with the
           Clinger-Cohen Act. Specifically, the Committee stated:
                       The basic policies and procedures necessary for sound oversight and
                       program management are clearly outlined in the Clinger-Cohen Act of
                       1996. The Committee believes that a strong Chief Information
                       Officer, with visibility over the programs and a commitment to
                       implementing the Clinger-Cohen Act, is the best approach to
                       correcting the Department’s problem. The Committee therefore
                       supports the Department’s request for a $14,710,000 increase in the
                       ASD(C3I)/CIO operation and maintenance budget specifically for
                       improving information technology oversight and for compliance with
                       the Clinger-Cohen Act and directs that no reductions be taken against
                       this account.

                       Furthermore, the Committee has included a new general provision
                       (Section 8125) that prohibits any information technology system from
                       receiving Milestone I, Milestone II, or Milestone III approval until the
                       Chief Information Officer certifies in writing to the congressional
                       defense committees that the system is in compliance with the
                       provisions of the Clinger-Cohen Act. The Committee provides this
                       funding and this additional authority in the expectation that they will
                       be used to instill discipline into the process. The Committee is
                       prepared to make an activity’s or a program’s compliance with the
                       Clinger-Cohen Act a condition of future funding.

           Status of DJAS Program. DFAS received Milestone 0 approval for the DJAS
           program in December 1997, and Milestone I and II approval in April 1999.
           Milestone III for DJAS has not been scheduled. To obtain Milestone III
           approval to implement DJAS, DFAS must demonstrate to the Milestone
           Decision Authority (MDA)2 that it has in place, a stable, producible,
           supportable, and cost-effective design that can perform the needed operations.
           The DoD also needs to respond to the House Appropriations Committee
           direction that the Milestone I review be redone.

           Estimated Costs of DJAS. DFAS estimated that the total costs of DJAS would
           be $140.2 million by the end of FY 2000. DFAS further projected that total
           life-cycle costs would be $700.7 million through the retirement of DJAS in
           FY 2015.




2
    The MDA for major information technology systems is the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) (ASD C3I),who is also the Chief Information Officer for
    DoD.

                                                     3
Objectives
     The overall objective of the audit was to determine whether the milestone
     approval process for DJAS met the standards for acquisition of information
     technology and the requirements of the Clinger-Cohen Act.




                                        4
                   Management of the Acquisition Process
                   for the Defense Joint Accounting System
                   DFAS was developing DJAS at an estimated life-cycle cost of about
                   $700 million without demonstrating that the program was the most
                   cost-effective alternative for providing a portion of DoD general fund
                   accounting. The DJAS program did not comply with DoD acquisition or
                   Clinger-Cohen Act requirements because:

                           •   DFAS believed that less complete planning was acceptable,
                               and therefore had not developed a complete or fully
                               supportable feasibility study, analysis of alternatives,
                               economic analysis, acquisition program baseline, or
                               performance measures, and had not reengineered business
                               processes; and

                           •   the Under Secretary of Defense (Comptroller) (USD[C]), the
                               ASD(C3I), and the Information Technology Overarching
                               Integrated Product Team had not provided effective oversight
                               to ensure that DFAS conducted the thorough planning
                               required by DoD guidance and public law.

                   As a result, DoD set a poor precedent for management control of major
                   information technology investments and remained unsure that DJAS
                   program risks had been minimized.

The Acquisition Process for DJAS
           Acquisition of DJAS Program. DFAS has developed DJAS without fully
           complying with DoD information technology standards3 and the requirements of
           the Clinger-Cohen Act. DoD 7000.14-R, the “DoD Financial Management
           Regulation,” volume 1, “General Financial Management Information, Systems,
           and Requirements,” May 1993 (with changes through June 1999), requires
           DFAS to modify its accounting systems to comply with DoD acquisition
           guidance and public law. However, DFAS could not justify the need for the
           DJAS program at Milestones I and II because it had deviated from DoD
           acquisition guidance and the Clinger-Cohen Act. Specifically, DFAS had
           deviated from requirements for:

                   •   studying the feasibility of potential alternative systems,

                   •   analyzing potential alternatives for selecting a DoD-wide accounting
                       system,

                   •   developing a complete and supportable economic analysis,
3
    DoD information technology standards are found in DoD Directive 5000.1, “Defense Acquisition,”
    March 15, 1996, and DoD Regulation 5000.2-R, “Mandatory Procedures for MDAPs [Major Defense
    Acquisition Programs] and MAIS [Major Automated Information System] Acquisition Programs,”
    March 15, 1996. DoD Regulation 5000.2-R was effective on March 15, 1996, and its fourth update
    was effective on March 11, 1999.


                                                  5
       •   preparing and supporting costs in an acquisition program baseline,

       •   reengineering business processes, and

       •   developing performance measures.

        Studying the Feasibility of Potential Alternative Systems. To comply
with the acquisition management process in DoD Regulation 5000.2-R, DFAS
should have completed studies before Milestone I to assess alternative methods
for satisfying its general fund accounting needs. Effective use of these analyses
would have given the MDA a valid basis for deciding whether a program should
proceed beyond Milestone I.

       DFAS conducted a feasibility study before Milestone I (from April 1995
to March 1996); however, the study was limited to the Corps of Engineers
Financial Management System and did not assess the feasibility of alternative
methods for satisfying general fund accounting needs.

       Analyzing Potential Alternatives for Selecting a DoD-Wide
Accounting System. DoD Regulation 5000.2-R states that the MDA should
review and approve an analysis of alternative systems at Milestones I and II. A
complete and supportable analysis of alternatives gives the MDA a basis for
judging whether any of the proposed alternatives are worth the cost. The
analysis of alternative systems that DFAS provided for review by the MDA was
not complete or fully supported.

        The analysis was limited to two DoD systems and two commercial
systems. In addition, the analysis did not fully identify the advantages and
disadvantages of potential systems, analyze the sensitivity of alternatives to
changes, describe the commonality and interoperability of alternative systems,
define the benefits of the systems, or address requirements in the systems.

        Developing a Complete and Supportable Economic Analysis. DFAS
had not developed a complete and supportable economic analysis. DoD
Instruction 7041.3, “Economic Analysis for Decisionmaking,” November 7,
1995, requires the development of an economic analysis that includes the total
costs and benefits of each feasible alternative. Effective use of an economic
analysis, in conjunction with an analysis of alternatives, gives program
managers a valid basis for evaluating the feasibility of alternatives. DFAS
published an economic analysis on February 25, 1999; however, it was more
limited in scope than the analysis of alternatives. The economic analysis only
evaluated the costs and benefits of using the Corps of Engineers Financial
Management System (CEFMS) instead of continuing to use the existing DoD
general fund accounting systems (including the Standard Accounting, Budgeting,
and Reporting System; the Standard Accounting and Reporting System; and the
General Accounting and Finance System-Reengineered).

       Preparing and Supporting Costs in an Acquisition Program Baseline.
The acquisition program baseline is a key planning document that the MDA
reviews at Milestone I to assist in making the critical decision of whether or not
to begin a new program. DoD Regulation 5000.2-R states that the acquisition

                                    6
program baseline should include cost, schedule, and performance goals for a
system. If these goals are not met, the MDA should require a reevaluation of
alternatives.

        DFAS had developed an acquisition program baseline for DJAS before
the combined Milestone I and II decision point; however, the baseline contained
unsupported and incomplete data. For example, the cost goals were extracted
from the economic analysis, but no documentation was available to support the
costs. In addition, the program baseline did not include the total costs of DJAS
and was limited to the costs of a modified version of DJAS planned for one
activity, the Ballistic Missile Defense Organization.

        Conducting Reengineering of Business Processes. The Clinger-Cohen
Act requires DoD to analyze its missions and revise its processes (commonly
referred to as business process reengineering) before making significant
investments in information technology. Because DFAS was redesigning
CEFMS into DJAS, the DFAS Deputy Assistant Deputy Director for Systems
stated that business process reengineering for CEFMS was performed by the
Corps of Engineers. Also, the Deputy Assistant Deputy Director for Systems
stated that business process reengineering should occur first and then systems
could be planned from a DoD-wide perspective.

       Subsequently, the DFAS, Director for Systems Integration stated that:

       •   DFAS has conducted numerous studies that identified needed process
           improvements—most recently the DFAS activity-based costing study
           of accounting, dated April 30, 1999. (Activity-based costing studies
           identify and quantify processes that do not add value and bottlenecks
           that could be eliminated with the implementation of better system
           capabilities.) These studies repeatedly show that unmatched
           transactions, reconciliation’s, system and process rework, and
           manual intervention are costing the Department millions of dollars
           each year.

       •   DFAS developed an activity model for finance and accounting and
           developed a comprehensive collection of accounting standards,
           referred to as the “Blue Book” to evaluate and select systems that
           will eliminate these non-value added processes. However, the
           Department has not conducted business process reengineering related
           to service unique financial management practices.

       •   Any analysis that results in an acquisition strategy needs to
           incorporate a business process reengineering strategy. That strategy
           may vary with different feasible alternatives. The current business
           process reengineering strategy for the Army is based on the
           assumption that a multiple system strategy provides the Department
           the best solution and that CEFMS is the best solution for the Army.
           Until an analysis of alternatives is performed, DFAS cannot
           determine whether this strategy is appropriate for the Army.


While DFAS contends that it has conducted numerous studies, it agrees that the
Department still has not conducted business process reengineering related to
service unique financial management practices. In addition, because DoD has
                                    7
    already selected the systems that will be used for general fund accounting, the
    utility of retroactive business process reengineering is moot. Instead, DoD
    should focus on reengineering to support the current acquisition strategy.

           Developing Performance Measures. Despite the fact that the
    Milestone 0 approval had been given several months previously, on April 27,
    1998, the MDA issued an acquisition decision memorandum requiring DFAS to
    develop performance measures for the improved capabilities expected to result
    from DJAS. In response, DFAS developed the performance measures and
    briefed the MDA on August 11, 1998. The MDA was satisfied with the
    performance measures, but requested additional performance measures to cover
    additional efficiencies and capabilities resulting from DJAS. (Efficiency
    performance measures relate to the quantity of work, cost of work, and the
    timeliness of deliveries.)
            Although the additional performance measures were not developed, the
    MDA subsequently stated that the original performance measures were sufficient
    to allow the program to proceed through the Milestones I and II. Although the
    MDA acquisition decision memorandum required DFAS to adhere to the DoD
    acquisition management process, the less-than-stringent oversight allowed DFAS
    to proceed through the milestones without fully meeting the MDA requirements
    and developing the additional efficiency standards as a baseline for measuring
    the effectiveness of DJAS.

Oversight of the Acquisition Management Process
    Neither the USD(C), the MDA, or the IT OIPT ensured compliance with DoD
    acquisition and Clinger-Cohen Act requirements. Because the acquisition
    management process was not followed, there was increased risk of developing a
    general fund accounting system architecture that may not be the most cost-
    effective or meet DJAS customer requirements.

    Oversight Strategy for the Acquisition Process. DoD Regulation 5000.2-R
    provides the MDA with a general strategy for effectively overseeing the
    acquisition process. The strategy recognizes that each program is different and
    does not require each program to follow the entire acquisition process.
    However, DoD Regulation 5000.2-R states that the MDA should require key
    documents for review at the decision points.

    Also, the USD(C) is required by DoD Directive 5118.3, “Under Secretary of
    Defense (Comptroller) (USD[C])/Chief Financial Officer (CFO), Department of
    Defense,” January 6, 1997, to oversee the development and implementation of
    financial strategic plans, reengineering of business practices, and information
    system architectures and strategies. The Directive also requires the USD(C) to
    ensure the preparation and validation of economic analyses in support of
    financial systems.

    Milestone 0. Prior to Milestone 0, we reviewed the analyses of alternatives
    prepared from November 30, 1996 through November 14, 1997. Based on our
    review, we issued memorandums on April 16, 1997, and August 15, 1997,
    advising the DFAS Project Management Office of our concerns and areas
                                       8
           needing improvement. However, deficiencies identified in the initial analyses of
           alternatives continued to exist in the November 1997 revision. On October 29,
           1997, the Inspector General (IG), DoD, informed the Acting Chairman of the
           Major Automated Information System Review Council4 of concerns about the
           DJAS program. Those concerns included:

                   •    authorizing DFAS to spend $5 million to complete the analysis of
                        alternatives and to modify the mission needs statement after
                        proceeding through Milestone 0 (these two documents should have
                        been completed before DJAS received approval to proceed through
                        Milestone 0); and

                   •    permitting DFAS to ignore business process reengineering while
                        authorizing additional funding for DJAS.

           The Acting Chairman informed us that the MDA, who approved milestones for
           information technology programs, was aware of the risks to DJAS, but decided
           in December 1997 to allow the program to progress through Milestone 0 rather
           than require the staff members working on the program to be without work. In
           addition, the USD(C) did not ensure that the analysis of alternatives and the
           mission needs statement were accurately completed, although the USD(C)
           directs and controls DFAS and is a member of the IT OIPT. These decisions by
           the MDA and the USD(C) allowed DFAS to deviate from the DoD acquisition
           management process and the Clinger-Cohen Act.

           Milestone I and II. On November 10, 1998, we issued a draft report stating
           that DJAS was not ready for Milestone I approval. As had been the case prior
           to the Milestone 0 decision, management did not take action on those concerns,
           On April 12, 1999, the MDA (who is also the ASD[C3I] and the Chief
           Information Officer) permitted DFAS to proceed through Milestones I and II.

           Likewise, the USD(C) did not require DFAS to follow the standards of the DoD
           acquisition management process or the Clinger-Cohen Act requirements.
           Further, the team of senior DoD officials that provided acquisition assistance,
           oversight, and review of the DJAS program for the MDA--the Information
           Technology Overarching Integrated Product Team (IT OIPT)5--did not
           recommend that the DJAS program be required to follow the standards of the
           DoD acquisition management process and the Clinger-Cohen Act before
           attaining Milestone I approval.

           We sent a memorandum on June 3, 1999, to the USD(C), ASD(C3I) and DFAS,
           stating that we were not continuing the audit, which had been intended to assist
           in management’s Milestone I review. We stated that until DFAS addressed the
           program uncertainties noted in previous reviews, DoD is subject to significant
           risk of developing an accounting system that may not fulfill the complete


4
    The Major Automated Information System Review Council was redesignated as the IT OIPT on
    July 28, 1998.
5
    The IT OIPT includes the USD(C); the Joint Staff; the Director, Operational Test and Evaluation; the
    Director, Program Analysis and Evaluation; the Director, Acquisition Program Integration; the Deputy
    ASD (C3I); and user representatives.

                                                     9
    requirements of a general fund accounting system, result in the most cost-
    effective system, resolve the current deficiencies in DoD accounting systems, or
    achieve the benefits of business process reengineering and data standardization.

    Our memorandum suggested that we be involved with the IT OIPT during the
    implementation of DJAS. However, the IT OIPT has not formally met since
    June 1999, and DFAS continues to develop DJAS without fully addressing the
    standards for the acquisition of information technology and the Clinger-Cohen
    Act.

Assessment of Risk in the DJAS Program
    DoD Directive 5000.1 requires program managers to continually assess risks to
    their programs. Program managers must understand and develop approaches to
    minimizing cost, schedule, and performance risks before a decision is made for
    a program to proceed through a milestone and into the next phase of the
    acquisition management process.

    Because DFAS was not fully meeting the DoD standards for the acquisition of
    information technology and the requirements of the Clinger-Cohen Act, there
    was limited assurance that DJAS would satisfy and standardize DoD-wide
    general fund accounting requirements and provide the accounting services
    expected by DFAS customers.

    Cost Risks Associated With the DJAS Program. As of November 14, 1997,
    DFAS estimated the DJAS program would incur total costs of $514.5 million.
    (The MDA subsequently reviewed and approved the program at Milestone 0 in
    December 1997.) However, before Milestones I and II, the Air Force and the
    U.S. Transportation Command were eliminated as potential users of DJAS. As
    a result, DFAS decreased the total costs of the DJAS program as of July 21,
    1998, to $499.8 million to reflect the reduced costs that resulted from
    eliminating these two customers. But within 6 months, DFAS had increased its
    estimate of total life-cycle costs for the DJAS program to $700.7 million. (This
    cost increase was reflected in the DJAS economic analysis as of February 25,
    1999.) The MDA reviewed and approved the DJAS program to proceed beyond
    Milestones I and II in April 1999.

    These cost increases in DJAS within less than a 2-year period occurred while
    the return on investment decreased from 28.6 percent in July 1997 to
    9.49 percent as of February 1999. In addition, as of March 1999, the estimated
    benefits had declined from $322 million to $204 million. Further, the DJAS
    program manager recently requested an additional increase in budget authority
    of $43.4 million. These cost increases, combined with a decreasing return on
    investment, represent an increased risk that the system may not be the most
    cost-effective alternative to perform DoD general fund accounting.

    Schedule Risks of DJAS. The DJAS program manager recognized the risks to
    timely implementation and deviated from the requirement for DJAS to perform
    the functions of a DoD-wide general fund accounting system. For example,
    DFAS recognized that DJAS could not be deployed to 346 Air Force sites.
    Based on coordination by DFAS with its customers, suggestions from the
                                      10
        Working Integrated Product Team, and the support of the IT OIPT, the
        Air Force was allowed to use the General Accounting and Finance System-
        Redesign to meet its general fund accounting requirements. After this decision,
        the MDA approved the DJAS program to proceed through Milestones I and II.

        Also, DFAS recognized that DJAS was not ready to be implemented at
        454 Army sites, security assistance activities, and U.S. Transportation
        Command sites. Further, DFAS recognized that solving the system problems of
        Air Force and Army customers would take almost 10 years and would require
        the use of standardized data elements and budget and accounting classification
        codes. In addition, after the MDA approved the DJAS program to proceed
        beyond Milestone 0, the time estimate for software development expanded from
        16 months to 6 years.

        As a result of these problems, DoD deviated from its original plans for DJAS
        and planned to use the system only for customers of the DFAS Indianapolis
        Center, Indianapolis, Indiana, which included the Defense agencies, the U.S.
        Army, the Army National Guard, the Military Traffic Management Command,
        and the Defense Security Cooperation Agency. However, according to DoD
        Directive 8000.1, “Defense Information Management Program,” October 27,
        1992, information technology systems should be planned, developed, and
        implemented from a DoD-wide perspective to ensure the consistency of
        information and processes. These deviations from the original schedules made
        DJAS unable to satisfy and standardize DoD-wide general fund accounting
        requirements.

        Performance Risks of DJAS. DJAS may not perform all general fund
        accounting services as effectively or efficiently as expected by its users. DJAS
        was designed to perform 14 types of services, including accounting for travel
        payments, management of inventories, and disbursing of funds. However,
        because DFAS eliminated 7 of the 14 services from DJAS6, DFAS customers
        had to use other DoD systems to satisfy general fund accounting needs.

        When DFAS analyzed the alternatives for general fund accounting requirements
        and selected DJAS to meet those requirements, DFAS did not fully consider that
        DJAS may not fully satisfy customer needs, and that customers would have to
        use other DoD systems to obtain acceptable general fund accounting services.
        Because DFAS customers need to obtain general fund accounting services
        outside of DJAS, the risk is increased that DJAS may not be the best alternative
        for performing general fund accounting services for all designated customers.

System Compliance With the Clinger-Cohen Act
        Certification Provided to Congress. The DoD Appropriations Bill, 2000
        requires the Chief Information Officer (who is also the ASD [C3I] and the
        MDA) to certify that major systems comply with the Clinger-Cohen Act before
        approving the systems at Milestone I, II, and III. The Chief Information Officer

6
 DFAS deleted the following services from DJAS: property, disbursing, system administration, work
management, travel, vendor pay, and inventory.


                                                11
    must also notify Congress when a major system has been certified. The
    notification should include the program’s funding, the milestone schedule, and
    confirmation that the program has completed:

           •   business process reengineering,

           •   an analysis of alternatives,

           •   an economic analysis that includes a calculation of the return on
               investment, and

           •   performance measures.

    DJAS Compliance With Clinger-Cohen Act. DJAS did not fully comply with
    the Clinger-Cohen Act requirements. As discussed in this report, the Chief
    Information Officer did not provide stringent oversight to ensure that Clinger-
    Cohen Act requirements, such as the analysis of alternatives, economic analysis,
    and performance measures, were met accurately or completely. We recognize
    that the Chief Information Officer had issued four acquisition decision
    memorandums to DFAS during the redesign and development of DJAS. Those
    memorandums, issued on December 16, 1997; April 27, 1998; September 29,
    1998; and April 12, 1999, required DFAS to accomplish significant tasks
    required by DoD information technology standards and the Clinger-Cohen Act.
    As of December 13, 1999, DFAS had addressed 40 of the 45 recommendations
    in the acquisition decision memorandums; however, the documents prepared by
    DFAS to address some recommendations did not contain complete analyses, and
    the data were not always supportable. The Chief Information Officer was
    directing DFAS to comply with DoD acquisition standards and Clinger-Cohen
    Act requirements; however, because of the lack of stringent oversight, DFAS
    had proceeded through the acquisition process without fully meeting those
    requirements.

    In our opinion, DoD information technology standards and requirements of the
    Clinger-Cohen Act were not met at Milestone 0, I, or II. The Chief Information
    Officer should not certify DJAS as being compliant with the Clinger-Cohen Act
    until DFAS performs a complete analysis of alternatives that includes business
    process reengineering, an acquisition program baseline, and economic analysis,
    and completes the development of appropriate performance measures.

Conclusion
    In commenting on the draft report, management disagreed with our assessment
    that oversight of the DJAS program had been ineffective. We continue to
    believe that DoD has set a poor precedent for management control of major
    information technology investments and remains unsure that the DJAS program
    risks have been minimized. The Assistant Inspector General for Auditing, IG,
    DoD and the Director, Investments and Acquisition, ASD(C3I) are working
    closely to improve the oversight of information technology investments and to
    establish an active partnership between the two offices to meet the challenge of
    implementing the Clinger-Cohen Act.

                                        12
    DFAS had not met the standards because the MDA and the USD(C) did not
    require DFAS to follow the established DoD acquisition management process.
    In addition, the IT OIPT was generally ineffective. The MDA, the USD(C),
    and DFAS need to acknowledge the limitations of DJAS and the inability of the
    program to meet DoD general fund accounting requirements, DoD information
    technology standards, and the Clinger-Cohen Act requirements.

    The House Appropriations Committee has directed DoD to conduct a proper
    Milestone I review and report to the congressional defense committees certifying
    DoD compliance with the Clinger-Cohen Act. However, the cost, schedule,
    and performance risks of DJAS can be reduced if the MDA updates the
    documentation for Milestones I and II based on the current environment for
    general fund accounting. These risks can also be reduced if the USD(C)
    requires DFAS to comply with DoD acquisition standards and the Clinger-
    Cohen Act requirements, as stated in the recommendations below.

    The MDA should withhold certification of DJAS and the granting of
    Milestone III approval until DFAS has demonstrated that it is adequately
    managing risk and that the system meets user requirements and complies with
    DoD acquisition standards and the Clinger-Cohen Act requirements.

Recommendations, Management Comments, and Audit
Response
    1. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence):

           a. Withhold granting Milestone III approval until the Defense
    Finance and Accounting Service has demonstrated that the current
    acquisition strategy will decrease risks, ensure the required functionality for
    users, and meet DoD acquisition standards and Clinger-Cohen Act
    requirements.

          b. Convene the Defense Joint Accounting System Information
    Technology Overarching Integrated Product Team and request
    recommendations on whether the Defense Joint Accounting System should
    proceed through milestones.

    Management Comments. The Acting Deputy Chief Information Officer
    concurred with the recommendations and stated that the approval of Milestone
    III will be withheld until DoD acquisition standards and Clinger-Cohen Act
    requirements are met. The Acting Deputy Chief Information Officer also
    agreed to hold a meeting of the Information Technology Overarching Integrated
    Product Team to discuss whether the Defense Finance and Accounting Service
    should receive Milestone III approval to give DJAS to the first customer.
    Further, the Acting Deputy Chief Information Officer will direct that an updated
    analysis of alternatives be prepared. These actions are responsive, and no
    further comments are required.

    2. We recommend that the Under Secretary of Defense (Comptroller)
    oversee the Defense Joint Accounting System and ensure compliance with

                                       13
DoD acquisition standards and Clinger-Cohen Act requirements, to include
developing and implementing strategic plans and system architectures,
reengineering business practices, and preparing and validating an economic
analysis.

3. We recommend that the Director, Defense Finance and Accounting
Service, require the Defense Joint Accounting System Program
Management Office to provide complete and supportable updated
documentation, as required by DoD Regulation 5000.2-R, which reflects the
current acquisition strategy. Documentation should include:

       a. Updating the analysis of alternatives to provide a complete and
supportable presentation that identifies the advantages and disadvantages of
alternative systems; analyzes the sensitivity of alternatives to changes;
describes the commonality and interoperability of alternative systems;
defines the benefits of the systems; and addresses system requirements.

       b. Modifying the economic analysis to include the total costs and
benefits of alternatives.

       c. Supporting the costs in the acquisition program baseline.

       d. Conducting reengineering on processes related to the Defense
Joint Accounting System.

       e. Developing performance measures for system efficiencies.

Office of the Under Secretary of Defense (Comptroller) Comments. The
Deputy Chief Financial Officer responded for both the Under Secretary of
Defense (Comptroller) and the Defense Finance and Accounting Service.
However, the Deputy Chief Financial Officer, did not concur or nonconcur with
the recommendations. The Deputy Chief Financial Officer stated that additional
time was needed to present the most cost-effective approach and the most
appropriate oversight for the Department’s accounting system requirements.

Audit Response. We appreciate the concern expressed by the Deputy Chief
Financial Officer for developing the most cost-effective approach and providing
oversight for the Department’s general fund accounting requirements. The
Under Secretary of Defense (Comptroller)’s commitment and oversight are
essential to ensuring adherence to DoD and Clinger-Cohen Act requirements.
However, the comments to the draft report were not responsive, in that, they
did not provide management’s positions on the recommendations. We request
that the Under Secretary provide comments to this report that detail specific
actions that will be taken to ensure the Defense Joint Accounting System
program complies with DoD and Clinger-Cohen Act requirements. Therefore,
we are requesting a response to this final report by August 16, 2000.




                                   14
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We performed audit work on DJAS to determine whether the
    acquisition management process for DJAS met the DoD standards for acquisition
    of information technology and the requirements of the Clinger-Cohen Act.

    The DFAS mission is to provide responsive, professional finance and accounting
    services to DoD. To accomplish this mission, DFAS developed a strategic plan
    for managing its financial systems. The strategic plan showed that four DFAS
    systems would provide general fund accounting for DoD by FY 2004. One of
    the four systems was DJAS.

    This report is the third in a series on the DoD strategy for developing DJAS, a
    standardized accounting system. This report discusses the management actions
    completed for DJAS at two key decision points in the DoD program management
    process, Milestones I and II, and the actions taken to meet the requirements of
    the Clinger-Cohen Act. Previous reports addressed the need for a DoD
    accounting system; analysis of alternative systems; standardization of work
    processes and data; and the completeness of documents required before two of
    the four key decision points, Milestone 0 and Milestone I.

    DJAS was to provide general fund accounting services to customers of the DFAS
    Indianapolis Center, including the Defense agencies, the U.S. Army, the Army
    National Guard, the Military Traffic Management Command, and the Defense
    Security Cooperation Agency.

    DFAS estimated that $140.2 million would be spent on DJAS by the end of
    FY 2000. In addition, DFAS estimated that the total cost of DJAS would be
    $700.7 million before the system’s planned retirement in FY 2015.

    The scope and methodology of this audit included analyses and interviews on the
    implementation of the acquisition management process for DJAS. Specifically,
    we:

           •   reviewed the four acquisition decision memorandums issued by the
               ASD(C3I) from December 1997 through April 1999;

           •   reviewed the analysis of alternatives, the economic analysis, the
               acquisition program baseline, and the operational requirements
               document prepared by the DJAS program office for the Milestone 0
               decision point and the combined Milestone I and II decision points;
               and

           •   interviewed personnel from the Office of the ASD(C3I), DFAS, and
               the DJAS program office.

    Limitation to Scope. This audit was directed by the House of Representatives
    Committee on Appropriations. Specifically, Congress directed audit work to


                                       15
determine whether DJAS met the DoD information technology standards and the
requirements of the Clinger-Cohen Act. We limited our scope to this request and
did not perform a review of management controls.

DoD-Wide Corporate-Level Government Performance and Results Act
Coverage. In response to the Government Performance Results Act, the
Secretary of Defense annually establishes DoD-wide corporate-level goals,
subordinate performance goals, and performance measures. This report pertains
to achievement of the following goal, subordinate performance goal, and
performance measures.

       • FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
         future by pursuing a focused modernization effort that maintains U.S.
         qualitative superiority in key warfighting capabilities. Transform the
         force by exploiting the Revolution in Military Affairs, and reengineer
         the Department to achieve a 21st century infrastructure. (01-DoD-2)

       • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
         financial and information management. (01-DoD-2.5)

       • FY 2001 Performance Measure 2.5.1: Reduce the number of
         noncompliant accounting and financial systems. (01-DoD-2.5.1)

       • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
         on financial statements. (01-DoD-2.5.2)

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objectives and
goals.

       • Financial Management Area. Objective: Consolidate finance and
         accounting operations. Goal: Consolidate and standardize financial
         systems. (FM-2.1)

       • Financial Management Area. Objective: Consolidate finance and
         accounting operations. Goal: Reduce and improve accounting
         systems. (FM-2.2)

       • Financial Management. Objective: Reengineer DoD business
         practices. Goal: Standardize, reduce, clarify, and reissue financial
         management policies. (FM-4.1)

       • Financial Management. Objective: Reengineer DoD business
         practices. Goal: Improve data standardization of finance and
         accounting data items. (FM-4.4)

       • Financial Management. Objective: Improve management
         incentives. Goal: Use the project management office for accounting
         systems to provide centralized management control and oversight for
         all migratory and interim migratory accounting systems. (FM-7.5)

                                   16
           • Information Technology Management Functional Area. Objective:
             Become a mission partner. Goal: Serve mission information users as
             customers. (ITM-1.2)

           • Information Technology Management Functional Area. Objective:
             Provide services that satisfy customer information needs. Goal:
             Modernize and integrate Defense information infrastructure.
             (ITM-2.2)

           • Information Technology Management Functional Area. Objective:
             Provide services that satisfy customer information needs. Goal:
             Upgrade technology base. (ITM-2.3)

           • Information Technology Management Functional Area. Objective:
             Reengineer DoD business practices. Goal: Modify existing systems
             and monitor new systems to be Y2K compliant. Improve acquisition
             processes and regulations. (ITM-4.3)
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the information management and technology and the Defense financial
    management high-risk areas.

    Audit Type, Dates, and Standards. We performed this program audit from
    October 1999 through April 2000 in accordance with auditing standards issued by
    the Comptroller General of the United States, as implemented by the Inspector
    General, DoD. We did not use statistical sampling methods for this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    to perform this audit.

Summary of Prior Coverage
    The Inspector General, DoD, has issued two reports related to the acquisition of
    DJAS:

           •   Report No. 97-051, “Review of the Corps of Engineers Financial
               Management System,” December 18, 1996.

           •   Report No. 97-206, “Review of the Defense Finance and Accounting
               Service Acquisition Strategy for a Joint Accounting System
               Initiative,” August 22, 1997.




                                       17
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Investments and Acquisition
  Director, Defense Logistics Studies Information Exchange

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Inspector General, Department of the Army
Chief Information Officer, Department of the Army
Auditor General, Department of the Army
Commander, Military Traffic Management Command
Director, Army National Guard Bureau

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Auditor General, Department of the Navy
Navy Chief Information Officer, Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Department of the Air Force

Other Defense Organizations
Ballistic Missile Defense Organization
Defense Advanced Research Projects Agency
Defense Finance and Accounting Service
Defense Legal Service Agency
Defense Security Cooperation Agency


                                         18
Defense Prisoner of War/Missing Personnel Office
Office of Economic Adjustment
Director, Operational Test and Evaluation
  Central Testing Evaluation Investment Program (Precision Guided Weapons Test
      and Evaluation)
  Foreign Comparative Testing
  Test and Evaluation
American Forces Information Service
  Headquarters, American Forces Information Service
  Armed Forces Radio and Television
  Defense Information School
  Defense Visual Information Center
  DoD Joint Visual Information Distribution Activity
  Television-Audio Support Activity
Director, Tri-Care Management Activities

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
  National Security Division
General Accounting Office
  National Security and International Affairs Division
       Technical Information Center

Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          19
Under Secretary of Defense (Comptroller)
Comments




                       21
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                     22
23
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report.

F. Jay Lane
Salvatore D. Guli
Kimberley A. Caprio
Dennis L. Conway
Stanley J. Arceneaux
Andrew T. Nerreter
David P. Yarrington
Susanne B. Allen
